NO.
IN THE

SUPREME COURT OF THE UNITED STATES

GONZALO CURIEL, PETITIONER
v.

STATE OF CALIFORNIA, RESPONDENT

ON THE PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEAL OF THE STATE OF CALIFORNIA,
SIXTH APPELLATE DISTRICT

CERTIFICATE OF SERVICE FOR,
PETITION FOR WRIT OF CERTIORARI AND FOR
MOTION TO PROCEED IN FORMA PAUPERIS

I, Arthur Dudley, a member of the Bar of this Court, hereby certify that on the 27th
day of March 2021, one copy of the Petition for Writ of Certiorari, and one copy of the
Motion for Leave to Proceed In Forma Pauperis, in the above-entitled case, were mailed first
class postage prepaid to JOHN H. DEIST, Deputy Attorney General of the State of
California, at 455 Golden Gate Avenue, Suite 11000, San Francisco, California 94102-7004,
(email address: John.Deist@doj.ca.gov) counsel for respondent herein. I further certify that
all parties required to be served have been served.

Dated: March 27, 2021

 

Page & Dudley

Attorneys at Law

605 Center Street

Santa Cruz, California 95060-3804
(831) 429-9966

(831) 427-2132 (fax)
adudley@psdlaw.com (email)
Counsel for Record for Petitioner
